                              NATIONAL SCIENCE FOUNDKIION
                                     4201 Wilson Boulevard
                                   ARLINGTON, VIRGINIA 22230




     OFFICE OF
INSPECTOR GENERAL


 MEMORANDUM

 DATE:                September 30,2008

TO:                   Kathie L. Olsen
                      Deputy Director, National Science Foundation

 FROM:
                       L ! n l . U
                      Deborah H. Cureton
                      Associate Inspector General for Audit

SUBJECT:              Audit of Lnvge Facility Operations Agveenzents: Per-fovmnnce
                      Mensz~vementnnd E ~ ~ n l ~ ~ a OIG
                                                      t i o n Report
                                                              ,      Number 08-2-005


Attached please find the final report of our audit of NSF's inclusion of performance
measurement and evaluation components in large facility operation agreements. We have
included NSF's response, in full, as an appendix to the final report.

OMB Circular A-50 requires NSF to prepare a time-phased corrective action plan to
address the report recommendations. Please furnish our office with a copy of this
corrective action plan by December 1, 2008.

I appreciate the courtesies and assistance provided by so many IVSF staff during the audit.
If you have any questions, please contact Karen Scott or me at (703) 292-71 00.

Attachment


Cc:     Dr. Christine Boesz, OIG             Dr. Tony Chan, MPS
        Dr. Mark Coles, BFA                  Mr. Thomas Cooley, BFA
        Ms. Knsten Cutforth, OIG             Mr. David Elizalde, BFA
        Ms. Elizabeth Goebels, OIG           Dr. Timothy Killeen, GEO
        Dr. James Lightbourne, OD            Dr. Michael Reischinan, ENG
        Ms. Karen Scott, OIG                 Ms. Karen Tiplady, BFA
Audit of Large Facility Operations Agreements:
Performance Measurement and Evaluation




                                  September 30, 2008
                                       OIG 08-2-005




                               National Science Foundation
                                Office of Inspector General
Executive Summary


Background         The National Science Foundation (NSF) funds large facilities that
                   allow scientists, educators, and students to access and work at the
                   frontiers of knowledge. These large facilities lead to scientific
                   discovery, learning, and innovation by providing scientists with the
                   advanced instrumentation needed to conduct state-of-the-art research.
                   With funding of more than $1 billion annually, large facilities are a
                   significant investment for NSF.

                   Each of NSF’s large facilities goes through a multi-stage life cycle
                   consisting of planning, construction, operations and maintenance, and
                   renewal or termination. While construction costs for these facilities
                   can reach into the hundreds of millions, the more significant impact to
                   NSF’s budget is from facilities that are in operations.

                   To operate and maintain these large facilities, NSF typically awards
                   five-year cooperative agreements to universities or non-profit
                   organizations. Under these agreements, the awardee is responsible
                   for the day-to-day operations of the facility, while NSF has the
                   responsibility to monitor and oversee the awardee’s programmatic
                   and financial performance.

Purpose            We are conducting a series of audits focused on NSF cooperative
                   agreements for currently operating large facilities. These audits will
                   determine whether NSF’s cooperative agreements are sufficient to
                   ensure: 1) identification and accomplishment of programmatic goals;
                   2) fiscal accountability; 3) stewardship of NSF assets; and 4)
                   compliance with laws and regulations. This is the first of these audits.

Results in Brief   In general, the terms and conditions included in NSF’s cooperative
                   agreements for the management and operation of its large facilities
                   need to be strengthened for NSF to fully ensure its facilities
                   accomplish their programmatic goals and objectives. Only two of the
                   six large facility cooperative agreements reviewed include terms and
                   conditions addressing all four of the primary components of a robust
                   program evaluation and measurement system. These primary
                   components include program goals, qualitative and quantitative
                   performance measures and targets against these goals, reporting
                   requirements, and evaluation and feedback.

                   With over $1 billion annually going to NSF’s large facilities, it is
                   important that NSF have a process to ensure all large facility
                   agreements contain each of the performance components. Currently,
                   NSF has no overarching policies in place to ensure that the


                                        i
Executive Summary


                  agreements for large facilities contain terms and conditions to address
                  performance evaluation and measurement. Instead, the success that
                  some of the facilities have achieved has been primarily due to the
                  hard work and dedication of program officers who identified the need
                  for performance evaluation systems and, through a process of trial
                  and error, incorporated performance evaluation terms and conditions
                  into the cooperative agreements over time. Therefore, we believe the
                  absence of an agency-wide policy contributed to the inconsistency
                  among agreements in addressing all of the critical elements of sound
                  and effective cooperative agreements.

                  Without all the components for performance evaluation and
                  measurement, NSF and external reviewers that may be called upon to
                  evaluate the success of a facility may not be able to fully assess the
                  performance of the awardees, and as a result, NSF can not be assured
                  that the facilities it funds are operating as effectively and efficiently
                  as possible or are achieving their intended goals.

                  NSF already has an established organization responsible for
                  developing policies related to NSF’s large facilities and for managing
                  and overseeing these investments. This Large Facility Office, within
                  the Office of the Chief Financial Officer, should provide the oversight
                  needed to ensure all large facility agreements contain performance
                  measurement systems and improve the learning curve for new
                  program officers. If the Large Facility Office were to develop formal
                  NSF policies regarding performance measurement and evaluation for
                  large facilities, it would allow all responsible NSF staff to more easily
                  construct agreements for the operation of large facilities that include
                  programmatic performance and evaluation components.

Recommendations   To ensure all current and future large facility operation agreements
                  include clear and agreed-upon goals, performance measures and
                  targets, reporting requirements, and methods for evaluation and
                  feedback we recommend the NSF Deputy Director

                     (1) Provide authority and resources to fully utilize the Large
                         Facility Office to oversee all phases of the large facility life
                         cycle;
                     (2) Direct the Large Facility Office to develop and incorporate
                         into NSF's Proposal and Award Manual, an overarching policy
                         and implementing procedures that require, either directly in
                         the award notice or by reference through other documents, all
                         current and future facility agreements to include, at a


                                        ii
Executive Summary


                         minimum, the four performance evaluation and measurement
                         components: 1) clear and agreed-upon goals and objectives; 2)
                         performance measures and, where appropriate, performance
                         targets; 3) periodic reporting; and 4) evaluation and feedback
                         to assess progress;
                     (3) Direct the Large Facility Office to provide training on
                         performance evaluation and measurement systems for NSF
                         staff; and
                     (4) Direct the Large Facility Office to develop a mechanism for
                         knowledge transfer among program officers with
                         responsibility for currently operating large facilities.

Agency Response   NSF generally agreed with our findings and agreed with all of our
                  recommendations.
and OIG
Comments




                                      iii
iv
Contents


Executive Summary                                                           i


Chapter 1           Introduction                                           1

                    Large Facilities at NSF                                1
                    Composition of a Cooperative Agreement                 2
                    Objectives, Scope, and Methodology                     2

Chapter 2           Requirements for Performance Evaluation                 5
                    and Measurement Are Important for All
                    Large Facility Agreements
                    Performance Evaluation and Measurement Are Important    5
                    Four Key Components of Performance Evaluation and       6
                      Measurement
                    Improvements Needed to NSF’s Cooperative Agreements    12

Chapter 3           More Policy and Support Needed                         17

                    Limited Success Occurred through Trial and Error       17
                    Role for Large Facilities Office                       18

Chapter 4           Conclusion and Recommendations                         21

                    Conclusion                                             21
                    Recommendations                                        21
                    Agency Response and OIG Comments                       22

Appendices
                    Appendix A: Agency’s Response                          23
                    Appendix B: Descriptions of Sample Facilities          27
                    Appendix C: Performance Measurement Scholarship        31
                    Appendix D: Detailed Information on Each Cooperative   35
                       Agreement




                                    v
    Chapter 1
    Introduction


Large Facilities              Created by the Congress in 1950, the National Science Foundation
                              (NSF) is an independent Federal agency whose mission is “to promote
at NSF                        the progress of science; to advance the national health, prosperity, and
                              welfare; to secure the national defense...” In accomplishing this
                              mission, NSF funds approximately 20 percent of all Federally supported
                              basic research conducted at America’s colleges and universities,
                              primarily through grants and cooperative agreements. The majority of
                              these awards go to individual or small groups of investigators for
                              research projects with an average duration of three years. NSF also
                              funds other endeavors, such as large facilities, that allow scientists,
                              educators, and students to access and work at the frontiers of
                              knowledge. These large facilities lead to scientific discovery, learning,
                              and innovation by providing scientists with the advanced
                              instrumentation needed to conduct state-of-the-art research. With
                              funding of more than $1 billion annually, large facilities are a significant
                              investment for NSF.

                              Each of NSF’s large facilities goes through a multi-stage life cycle
                              consisting of planning, construction, operations and maintenance, and
                              renewal or termination. Each phase of the lifecycle has its own unique
                              characteristics that in turn create new and different management and
                              operational challenges for both the facility and NSF, which provides
                              oversight of these projects. At the time we initiated this audit, NSF was
                              overseeing 4 large facilities in the planning phases, 6 under construction,
                              and 16 in the operations phase.

                              While construction costs for these facilities can reach into the hundreds
                              of millions, the more significant impact to NSF’s budget is from
                              facilities that are in operations. In fiscal year 2006, NSF spent over $1
                              billion, almost 18 percent of its $5.6 billion budget,1 to operate its large
                              facilities. In contrast, during the same period, NSF spent $233.8
                              million, or 4 percent of its budget for facility construction. The
                              operations phase includes:

                                  the day-to-day work required to: support and conduct research
                                  and education activities; ensure that the facility is operating
                                  efficiently and cost-effectively; and provide small- and
                                  intermediate-scale technical enhancements when needed to
1
  This $1 billion supports the 16 large facilities that are in operations, some smaller physics and materials research
facilities, and the initial support for operations and maintenance funding for projects still in construction. A small
portion of this figure also supports the phase out of the Ocean Drilling Program and the concept and development
for some of the major research equipment and facility construction projects.


                                                           1
    Chapter 1
    Introduction


                                  maintain state-of-the-art research capabilities.2

                              To operate and maintain these large facilities, NSF typically awards
                              five-year cooperative agreements to universities or non-profit
                              organizations. Under these agreements, the awardee is responsible for
                              the day-to-day operations of the facility, while NSF has the
                              responsibility to monitor and oversee the awardee’s programmatic and
                              financial performance.

Composition of                At NSF, a cooperative agreement is much more than a single document.
                              According to the NSF’s Proposal and Award Policy and Procedures
a Cooperative                 Guide, the “[c]omposition of an NSF award includes:
Agreement
                                  a. the award notice, including any special conditions applicable
                                     to the award and any numbered amendments thereto;
                                  b. the budget, which indicates the amounts, by categories of
                                     expense, on which NSF has based its support;
                                  c. the proposal referenced in the award notice;
                                  d. the applicable NSF conditions referenced in the award notice;
                                     and
                                  e. any NSF program announcement, program solicitation or
                                     other documents or special requirements incorporated by
                                     reference in the award notice.”

                              For large facility awards in operation, the cooperative agreement is
                              typically composed of the award notice including any special
                              conditions applicable to the award and any numbered amendments,
                              the award budget, the proposal referenced in the award notice, the
                              applicable NSF conditions referenced in the award notice, and any
                              NSF program announcement, program solicitation or other
                              documents or special requirements incorporated by reference in the
                              award notice. For example, some of the large facility agreements
                              incorporate annual program plans, proposals, guidelines, and other
                              references in the award notice and consequently, these become part
                              of the cooperative agreement.

Objectives,                   Due to the sizable investment by NSF in the operations phase of its large
                              facilities, we are conducting a series of audits focused on NSF’s
Scope and                     cooperative agreements for currently operating large facilities. These
Methodology                   audits will determine whether NSF’s cooperative agreements are

2
    Large Facilities Manual, National Science Foundation, at 26 (May 2007).


                                                          2
    Chapter 1
    Introduction


                           sufficient to ensure: 1) identification and accomplishment of
                           programmatic goals; 2) fiscal accountability; 3) stewardship of NSF
                           assets; and 4) compliance with laws and regulations. We will issue
                           separate audit reports addressing each of these objectives. Our audits
                           will be limited to assessing the adequacy of the terms and conditions of
                           the agreements themselves and will not evaluate either the awardee’s
                           implementation of those terms and conditions or NSF’s oversight and
                           management of the cooperative agreements.

                           To accomplish these objectives we chose cooperative agreements for 6
                           of the 16 large facilities currently in the operations phase. The
                           following facilities will constitute our sample for each audit:3

                                   Academic Research Fleet (ARF);4
                                   Cornell Electron Storage Ring (CESR);
                                   Gemini Observatories (Gemini);
                                   George E. Brown, Jr. Network for Earthquake Engineering
                                     Simulation (NEES);
                                   National Center for Atmospheric Research (NCAR); and
                                   National Optical Astronomy Observatory/National Solar
                                     Observatory (NOAO).

                           We selected these facilities in order to include as broadly as possible the
                           varying characteristics of NSF’s large facility portfolio. For example,
                           the sample includes Federally Funded Research and Development
                           Centers (FFRDCs)5 and non-FFRDCs; newly operating and
                           longstanding facilities; those that conduct in-house research and those
                           that do not; facilities that receive additional funding from other
                           government agencies or international partners and those that rely solely
                           on NSF as the funding source; and facilities overseen by different NSF
                           scientific directorates.

                           This first audit focuses on whether NSF has included sufficient terms
                           and conditions in its large facility cooperative agreements to ensure


3
  See Appendix B for descriptions of each of the six facilities contained in our sample.
4
  While referred to as the Academic Research Fleet in NSF’s budget, this facility is also referred to as the
University-National Oceanographic Laboratory System (UNOLS). In addition, the ARF agreements consist of one
cooperative agreement for the UNOLS Office and 23 separate cooperative agreements for each of the 23 ships
currently in operation. We reviewed the UNOLS office agreement and all 23 ship agreements.
5
  See Federal Acquisition Regulation Part 35 for more information on Federally Funded Research and Development
Centers.


                                                      3
    Chapter 1
    Introduction


                             awardee accomplishment of the facilities’ programmatic goals.6 To
                             establish a framework for assessing these terms and conditions, we
                             reviewed relevant scholarship that identified the primary components of
                             a performance evaluation and measurement system. This scholarship
                             included NSF’s own studies of large facilities, prior audits addressing
                             NSF’s large facility projects, and other external studies.

                             For each of the sample facilities, we identified and reviewed the
                             performance evaluation and measurement terms and conditions reflected
                             in the cooperative agreements. We also discussed, with both the
                             responsible program officers and grant officers, the terms and conditions
                             of each of the six large facilities as they relate to our audit objective.

                             We conducted this performance audit between July 2006 and July 2008
                             in accordance with generally accepted government auditing standards.
                             Those standards require that we plan and perform the audit to obtain
                             sufficient, appropriate evidence to provide a reasonable basis for our
                             findings and conclusions based on our audit objectives. We believe that
                             the evidence obtained provides a reasonable basis for our findings and
                             conclusions based on our audit objective.




6
 We use the term “programmatic goals” in a broad sense to indicate all goals that the awardee is intended to
accomplish in the operation of the facility, such as basic operations, administration, technical enhancements,
education and outreach, and maintenance. This includes more than the end scientific goals, for which the facility
was first created.


                                                         4
Chapter 2
Requirements for Performance Evaluation and
Measurement Are Important for All Large Facility
Agreements
Performance                   Increasingly, there has been a push for Federal agencies to demonstrate
                              the quality and results of their programs. The Government Performance
Evaluation and                and Results Act (GPRA), enacted in 1993, requires the measurement and
Measurement                   reporting of program results to determine if the programs are effective
Are Important                 and achieving their strategic and annual goals. Additionally, in 2002, the
                              Office of Management and Budget (OMB) developed the Program
                              Assessment Rating Tool (PART) to assess and improve program
                              performance so that the Federal government can achieve better results.
                              Most recently, in November 2007, an Executive Order issued by the
                              President requires Federal agencies to set measurable goals to improve
                              operations and establish a means to measure their progress towards these
                              goals.

                              Additionally, there has been greater emphasis within the Federal
                              government to apply program evaluation and measurement concepts to
                              assistance awards such as grants and cooperative agreements. Many
                              Federal agencies use program performance evaluation and measurement
                              as a tool for ensuring that the desired results of its awards are achieved.
                              Large facility awards can benefit from the application of program
                              measurement concepts on a consistent basis.

                              As the competition for budget resources intensifies, high-level
                              decisionmakers, such as the Congress and agency heads, need to know
                              which programs are achieving their goals and objectives to make
                              informed decisions about where to allocate scarce resources.7 NSF is
                              similarly faced with making tough funding decisions among competing
                              priorities. Proposed facilities are competing for scarce resources not only
                              with other new facilities, but also with existing facilities and traditional
                              single-investigator research. One of NSF’s management challenges is to
                              create a portfolio management plan that takes into account these
                              competing priorities and the research needs of the entire scientific
                              community. One of the ways in which NSF can meet this challenge is
                              through the use of a robust system to evaluate and measure the
                              accomplishments of its facility programs.

                              Measuring the results of a particular grant or large facility can provide
                              evidence of its successful performance against goals and objectives.
                              Program managers can use performance evaluation and measurement
                              information to defend their programs against budgetary challenges and


7
    Guide to Opportunities for Improving Grant Accountability, Domestic Working Group at 36 (Oct. 2005).


                                                         5
Chapter 2
Requirements for Performance Evaluation and
Measurement Are Important for All Large Facility
Agreements
                            make decisions on resource allocation.8 In addition, performance
                            evaluation and measurement will help organizations understand how
                            decision-making processes or practices led to success or failure and help
                            identify needed improvements.9 Performance measurement also allows
                            for the early detection of problems and the implementation of midcourse
                            corrections.

                            NSF can likewise benefit by including a robust performance evaluation
                            and measurement system in its large facility cooperative agreements.
                            With such a system in place, program officers and external reviewers can
                            more easily determine the success of NSF’s facilities. As explained by
                            one NSF site-visit team, if a facility does not collect critical measures,
                            the opportunity to evaluate the work underway is lost. In turn, NSF may
                            not be able to adequately determine funding priorities or determine
                            whether to recompete the operations of the facility in the future. In
                            addition, if NSF can’t determine whether to recompete a facility, NSF
                            may continue to fund an awardee that is not operating in an effective or
                            efficient manner and this could eventually impact the science being
                            conducted at the facility.

Four Key                    Relevant scholarship10 on measuring program performance within the
                            Federal government has identified four key components of an effective
Components of               program evaluation and measurement system: 1) clear and agreed-upon
Performance                 goals and objectives; 2) performance measures and, where appropriate,
Evaluation and              performance targets; 3) periodic reporting; and 4) evaluation and
                            feedback to assess progress.
Measurement

Clear and Agreed- The first component of a robust performance evaluation and
Upon Goals        measurement system is a set of clearly defined goals and objectives that
                            have been agreed to in writing by both NSF and the awardee.

                            The Guide to Opportunities for Improving Grant Accountability
                            developed by the Domestic Working Group states, “before the grant
                            process even begins, goals … must be established to provide a guide.”
                            But these goals must be well defined so that they are clearly understood
                            by all parties. As expressed in the National Academies Report: Key
                            Performance Indicators for Federal Facilities Portfolios, effective

8
  Id.
9
  Key Performance Indicators for Federal Facilities Portfolios, National Academies (2005).
10
   See Appendix C for a full list and description of this scholarship material.


                                                        6
Chapter 2
Requirements for Performance Evaluation and
Measurement Are Important for All Large Facility
Agreements
             performance evaluation and measurement systems include “clearly
             defined, actionable, and measurable goals.”

             OMB’s Performance Measurement Challenges and Strategies identifies
             two types of goals. Strategic goals are statements of purpose or mission.
             An example of a strategic goal for a weather program might be
             “protecting life and property, and promoting commerce and the quality of
             life, through accurate forecasts.” The second type of goal flows from the
             strategic goals and is called a performance goal. OMB defines
             performance goals as “target levels of performance expressed as a
             measurable objective, against which actual achievement can be
             compared.” Performance goals can be used to evidence progress towards
             accomplishment of strategic goals. For example, a performance goal for
             a weather program might be “increasing the accuracy of local weather
             forecasts over the next year.”

             In addition to being clearly defined, the goals for each of NSF’s large
             facilities must be agreed upon between NSF and the awardee. NSF
             awards its large facilities through cooperative agreements. The basic
             understanding of such an agreement is that the two parties work in
             partnership to achieve a common purpose. Consequently, agreement on
             facility goals, both strategic and performance, is essential to the success
             of the facility and provides the direction for both management and
             oversight of the facility. According to the Guide to Opportunities for
             Improving Grant Accountability, “lack of agreement among grantees and
             Federal parties regarding grant purposes and performance measures,
             results in a lack of focused planning to achieve common goals.”

             Further, it is important to document these goals in the facility cooperative
             agreements. As stated in NSF’s Award Administration Guide, “the
             grantee should monitor the performance of the project to assure
             adherence to performance goals, time schedules or other requirements as
             appropriate to the project or the terms of the grant.” Further, as stated in
             NSF’s Proposal and Award Manual, NSF’s role focuses partly on
             “monitoring the work performed by the prime awardee to ensure that it is
             consistent with the primary objectives of the program as reflected in the
             award.” By placing the facility’s goals in the agreement, the awardee has
             clear knowledge of the expectations and award requirements upon which
             to measure its performance.




                                     7
Chapter 2
Requirements for Performance Evaluation and
Measurement Are Important for All Large Facility
Agreements
Performance                   The next step in creating a robust performance evaluation and
Measures and                  measurement system is to develop performance measures and targets
                              where appropriate, as tools for determining whether a facility is
Targets
                              progressing successfully towards its stated goals and objectives.
                              According to the Guide to Opportunities for Improving Grant
                              Accountability, “measuring the results of a program can provide evidence
                              of its successful performance against goals and objectives.”

                              OMB’s Performance Measurement Challenges and Strategies defines
                              performance measures as “indicators or metrics that are used to gauge
                              program performance.” Performance measures can be outcome or output
                              focused, as well as qualitative or quantitative. Outcome measures assess
                              the results of a program against its intended purpose while output
                              measures are tabulations or calculations of an activity that can be
                              expressed in either a qualitative or quantitative manner.11 For example,
                              an outcome measure might be whether the weather program has achieved
                              its goal of protecting life and property, while one output measure might
                              be average advance warning time for tornadoes. A target for the tornado
                              warning time might be an average of 20 minutes by a certain date.

                              Progress against stated goals might also be measured through the conduct
                              of a qualitative study or review of a program. For example, one way that
                              NSF evaluates the performance of its awardees is through awardee site
                              visits. However, performance measures encompass more than a
                              statement that NSF will conduct a periodic review of the facility.
                              Performance measures and targets give definition to such a review.
                              Consequently, a balance of output and outcome, or quantitative and
                              qualitative measures and targets can provide an organization with a full
                              view of the success of a facility. For example, output or quantitative
                              measures and targets can better inform an overall outcome or qualitative
                              assessment.

                              While the use of this exact model may not be optimum for NSF's large
                              facilities, the Department of Energy (DOE) Office of Science includes
                              performance measures and targets in its contracts for the management of
                              its laboratories, which, like some of NSF's large facilities, are considered
                              FFRDCs and are managed by outside entities such as research
                              universities. According to DOE, this performance-based management
                              approach has “placed a greater emphasis on mission performance, best
                              business practices, cost management, and improved contractor

11
     Government Performance and Results Act, Public Law 103-62 (2003).


                                                        8
Chapter 2
Requirements for Performance Evaluation and
Measurement Are Important for All Large Facility
Agreements
                           accountability.” DOE defines a performance measure as a “quantitative
                           or qualitative method for characterizing performance to assist the
                           reviewer in assessing achievement of the corresponding performance
                           objective (i.e., what you would measure)” (emphasis added). DOE’s
                           measurement process includes outcome and output performance
                           measures and targets for both management and operation goals and
                           science and technology goals. For example, management and operation
                           evaluation may include such measures as the number of safety incidents
                           or the percent of external audit findings that were not previously
                           identified through self assessment, while science and technology
                           measures may include the number of publications in journals, significant
                           awards, and invited talks.

                           Just as with goals, it is important for NSF to include performance
                           measures and targets in its cooperative agreements for large facilities.
                           The Guide to Opportunities for Improving Grant Accountability states
                           that Federal agencies “need to establish measures for new grant programs
                           quickly, ideally before awards are made, to incorporate measurement
                           requirements into the grant award.” Further, according to NSF’s
                           Facilities Subcommittee of the Business Operations Advisory
                           Committee, “all cooperative agreements that fund operations should
                           incorporate appropriate metrics for success” (emphasis added).
                           As expressed in a recent NSF Total Business Systems Review12 of a
                           large facility, implementing performance metrics allows NSF to monitor
                           awardee performance and is a means of continuously improving
                           operating performance, accountability, and efficiency.

                           For NSF for example, large facility measures could include such output
                           or quantitative measures as 1) the number of scientists and students
                           trained or using a facility, 2) the number of students going on to graduate
                           school after being involved with a program at the facility, 3) the number
                           of facility-related publication citations per year, 4) usage rates at the
                           facility, 5) delivery of major instruments on time and budget, 6) number
                           of facility users reporting satisfactory or better experience, or 7) the
                           percentage of annual tasks completed. After determining which
                           measures are appropriate for the given facility, NSF, in conjunction with
                           the awardee, can then develop appropriate targets for these measures.
                           Subsequently, the results of these measures can be used by NSF
                           reviewers during awardee site visits and other outcome or qualitative

12
  NSF’s Total Business System Reviews (TBSR) are advanced monitoring functions that NSF uses to assess the
efficiency and effectiveness of its Large Facility awardees’ business systems.


                                                      9
Chapter 2
Requirements for Performance Evaluation and
Measurement Are Important for All Large Facility
Agreements
                             reviews to assess overall success.

Periodic                     The third necessary component for a strong performance evaluation and
Reporting                    measurement system is a mechanism for reporting on performance
                             information. In its report, Internal Control – Integrated Framework, the
                             Committee of Sponsoring Organizations explains that performance
                             information is needed to run an organization, and to move toward
                             achievement of the organization’s objectives. Reporting of this
                             information provides management a way to assess the entity’s
                             performance relative to established objectives.

                             Performance information reporting is applicable to NSF’s large facilities.
                             Reporting requirements complement the performance management
                             system best when they are incorporated into the cooperative agreement.
                             NSF does recognize the importance of reporting for its large facilities.
                             As stated by NSF in its Large Facility Manual:

                                   reviews and reporting are an important part of the process that
                                   allows the [program officer] to monitor performance and
                                   compliance with project goals…The [program officer] should
                                   clearly define the reporting requirements that are the
                                   responsibility of the awardee in the Cooperative Agreement.

                             Information reported to NSF can be used in making management
                             decisions regarding large facilities, such as determining whether to
                             recompete a facility’s management agreement. As further explained in
                             NSF’s guidance on large facility Project Execution Plans:13

                                   since the policy of NSF is to re-compete operational
                                   agreements for large facilities on a five-year basis (or sooner,
                                   if indicated by the performance of the Awardee in managing
                                   the facility), these awards should be structured in a way that
                                   provides the information to NSF to make this assessment.
                                   Thus, the cooperative agreement may contain specific
                                   conditions that facilitate this determination... (Emphasis
                                   added.)

                             Further, placing reporting requirements in the cooperative agreement can

13
  This information is taken from NSF’s Draft Guidelines for Development of Project Execution Plans for Large
Facilities, the purpose of which is to provide assistance to the Program Officer, Grants and Agreements Officer, and
others involved in overseeing a large facility project in assessing the project management plans of an awardee.


                                                        10
Chapter 2
Requirements for Performance Evaluation and
Measurement Are Important for All Large Facility
Agreements
                 minimize future problems. The Facilities Subcommittee of NSF’s
                 Advisory Committee for Business and Operations raised a xxxxxxx
                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx            x
                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx


Evaluation and   The final component of a robust performance management system is a
Feedback         method for evaluating progress towards meeting goals and providing
                 feedback on that progress. As stated in the National Academies Report:
                 Key Performance Indicators for Federal Facilities Portfolios,
                 “[p]erformance measures are of limited value unless they are used in
                 conjunction with formal and continuous feedback, or evaluation,
                 processes.” In addition to this report, the Guide to Opportunities for
                 Improving Grant Accountability states, “once grants are awarded,
                 performance needs to be monitored. Following grant completion, the
                 goals and measures established at the beginning of the process need to be
                 evaluated against actual results and adjustments made as needed for
                 future grants.”

                 Independent evaluation has long been a necessary component of NSF-
                 funded research. According to the Report by the Facilities Subcommittee
                 of the NSF Advisory Committee for Business and Operations:

                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                 xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                 The evaluation process also needs to provide feedback so that the
                 facility’s management can correct any potential problems. The Guide to
                 Opportunities for Improving Grant Accountability states that through the
                 evaluation of performance, awardees can address potential problems
                 early in the grant period and keep on course toward goals. In addition,
                 evaluations can help “identify reasons for success or failure and
                 recommend changes that can help a program achieve its goals and
                 objectives.” According to the National Academies Report: Key
                 Performance Indicators for Federal Facilities Portfolios, key
                 components of an effective performance measurement system include
                 “feedback systems to support continuous improvement of an
                 organization’s processes, practices, and results.”


                                       11
Chapter 2
Requirements for Performance Evaluation and
Measurement Are Important for All Large Facility
Agreements
Improvements                   All six of the facilities in our sample included at least one component of
                               an effective program evaluation and measurement system. However,
Needed to                      only two contained all four elements.14
NSF’s
Cooperative
Agreements
                                         Gemini       NOAO         NCAR          ARF         NEES         CESR
 Clear and Agreed-Upon                    Yes          Yes          Yes           No          No           No
 Goals
 Balanced Performance                      Yes          Yes          No           Yes          No          No
 Measures and Targets
 Reporting Requirements                    Yes          Yes          Yes          Yes          Yes         No
 Evaluation and Feedback                   Yes          Yes          Yes          Yes          Yes         Yes

                               All of the cooperative agreements contained in our sample provide for a
                               monitoring system that includes evaluation and feedback. In addition to
                               a general statement of NSF’s responsibility for facility monitoring and
                               oversight, all the agreements inform the awardee that both NSF and
                               external experts will review the performance of the facility on a periodic
                               basis to help determine the success of the facility.

                               The Gemini and NOAO agreements both contain all four components of
                               a robust performance evaluation and measurement system. These
                               agreements provide for clear and agreed-upon goals and also address a
                               process for updating these goals when necessary. These agreements
                               require long-term as well as annual program plans, approved by NSF
                               program officers that define and give substance to strategic goals by
                               detailing major program goals and emphases, including new thrusts and
                               changes envisioned for the upcoming years. These agreements also
                               require balanced performance measures and targets through a
                               combination of qualitative and quantitative, and outcome and output
                               measures. The Gemini and NOAO cooperative agreements also require
                               the awardee to report to NSF on tasks completed under its annual
                               program plans, GPRA measures and targets, and quantitative and
                               qualitative performance information. However, while these agreements
                               met all of our basic performance evaluation components, they could still
                               be improved by requiring the awardees to report on more of the key
                               performance measures and targets for which they are already collecting

14
     See Appendix D for more detailed information on how each facility’s agreement addressed the four components.


                                                         12
Chapter 2
Requirements for Performance Evaluation and
Measurement Are Important for All Large Facility
Agreements
                            performance data and by clearly defining what constitutes poor
                            performance that would necessitate corrective action on the part of the
                            awardee.

                            Like the Gemini and NOAO agreements, the NCAR agreement includes
                            clear and agreed-upon goals, reporting requirements, and a method for
                            evaluation and feedback. However, the NCAR agreement does not
                            provide for balanced performance measures and targets. The NCAR
                            agreement contains primarily qualitative and outcome oriented measures.
                            NCAR’s strategic plan, which has been incorporated into the cooperative
                            agreement by reference, contains numerous measures for how it plans to
                            meet its strategic goals such as the following measure related to
                            education:

                                 Student and teachers will have new opportunities to benefit from
                                 and participate in the science and engineering taking place at a
                                 major national research center.

                            The plan continues by providing additional detail on the many facets of
                            this measure. For example, the plan states:

                                 NCAR will work with university colleagues and other interested
                                 stakeholders to propagate atmospheric science-related curricula,
                                 science centers, and museum exhibits worldwide, with an initial
                                 focus on climate affairs.

                            However, the NCAR cooperative agreement does not balance these
                            qualitative and outcome measures with quantitative or output measures.
                            In many cases, a simple change could provide more information for
                            potential reviewers to evaluate whether NCAR is fully successful in
                            meeting its overall goals. For example, the above measure may have
                            provided more meaning if it defined either target amounts of curricula,
                            science centers, and museum exhibits or a target increase over current
                            levels.

                            The ARF agreements also meet three of the four requirements for an
                            effective performance measurement system, but are missing clear and
                            agree-upon goals. While the ship operations’ context statements15

15
  The context statement is part of the program officer’s review analysis of each ship proposal.
16
  Due in part to the lack of clearly defined metrics, NSF intends to phase out the NEESinc cooperative agreement
over a two-year period.


                                                       13
Chapter 2
Requirements for Performance Evaluation and
Measurement Are Important for All Large Facility
Agreements
             contain detailed goals for ships in operation, these goals were not
             incorporated into the cooperative agreements. However, according to the
             NSF grants officer responsible for ARF, NSF is open to placing these
             goals into the cooperative agreements in the future.

             The NEES agreement only contains two of the four components
             necessary for an effective performance measurement system. First, while
             NEES has been attempting to improve the clarity of its goals, further
             improvements are still needed. While the original cooperative agreement
             contained some goals, two expert review teams have noted problems
             with the clarity of those goals. A 2005 NSF review team composed of
             management and financial professionals noted that NEES “did not have
             clear, consistent, and focused goals.” As a result, the awardee created a
             “task group on success” and issued revised long-term strategic goals.
             Most recently, a July 2007 review team stated that NEES still needed to
             better convey what the facility wants to achieve. In particular, the site
             visit report stated that NEES lacked “corresponding objectives to
             demonstrate the relevancy, measurability, or successful achievement of
             each of [its] goals.” In addition, while the NEES agreement does require
             user surveys, qualitative and quantitative performance information, and
             NSF GPRA measures, NSF relies heavily on the awardee to create most
             of the balanced performance measures and targets for the facility.
             Although the cooperative agreement requires the awardee to create
             performance metrics, it does not specify by when the awardee should
             complete and submit all of its metrics to NSF. Over three and a half
             years into the award, the awardee has still not finalized many of its
             measures and targets nor have they been incorporated into the
             cooperative agreement. Further, while the scope of our audit did not
             include an assessment of the quality of the measures the awardee has
             created, a July 2007 site visit team stated, “[t]he recently defined
             performance metrics are process oriented and are monitoring progress
             rather than performance.”16 Further, while NEES has started to submit
             annual work plans to NSF, the NEES agreement does not explicitly
             require such plans be submitted to NSF for each year and thus
             incorporated into the cooperative agreement.

             The final agreement we reviewed contains just one of the four
             components needed for an effective performance measurement system.
             CESR is a mature facility that NSF is phasing out of its portfolio. For
             that reason, the goals of the facility have changed. However, the
             cooperative agreement has not kept pace with those changes and been
             updated with these new goals. If the CESR agreement had incorporated


                                   14
Chapter 2
Requirements for Performance Evaluation and
Measurement Are Important for All Large Facility
Agreements
             annual or long-term program plans by reference into the cooperative
             agreement, CESR could have had a vehicle for defining and updating its
             goals. In addition to needing updated and clearly-defined goals, the
             CESR agreement is mostly silent on the creation of performance
             measures and targets. This agreement does not incorporate the NSF
             GPRA measures, nor does it require user surveys, annual program plans,
             or in-depth quantitative or qualitative information. Finally, the CESR
             agreement only requires the awardee to report basic information to NSF.
             Because the CESR agreement does not include performance measures
             and targets, the awardee may not collect meaningful information or
             report this to NSF.




                                   15
16
Chapter 3
More Policy and Support Needed


Limited Success   While the agreements we reviewed contain some of the elements needed
                  for effective accountability and assessment, NSF lacks an overall policy
Occurred          requiring its facility agreements to include provisions for identifying,
through Trial     tracking, and reporting performance goals and accomplishments of the
and Error         facility. In addition, NSF provides little or no means for responsible
                  program officers to share information, experiences, and best practices
                  for assessing facility success. We believe such an overarching policy on
                  performance management in agreements for facilities and formal
                  mechanisms to transfer and share best practices would lead to more
                  comprehensive and consistent facility agreements.

                  Without an overall policy for including performance-related terms and
                  conditions in its cooperative agreements, NSF’s performance
                  requirements in the current agreements are the result of a process of trial
                  and error. One program officer stated that if the cooperative agreement
                  was at all successful, it was through hard work, and he had the “bumps
                  and bruises” to show for it. For example, several of the award
                  agreements we reviewed incorporated performance evaluation after an
                  external review or study noted the lack of performance measures at the
                  facility. NOAO strengthened its performance measurement after the
                  National Research Council of the Astronomy and Astrophysics Survey
                  Committee released a report in 2001 entitled “Astronomy and
                  Astrophysics in the New Millennium,” which recommended that “NSF
                  should set criteria…by which NOAO’s success can be evaluated.”
                  Similarly, NCAR has continuously improved its performance
                  measurement systems in response to NSF program officers’ requests and
                  to recommendations from NSF panel reviews. For example, a
                  December 2002, panel report recommended that NCAR “develop a
                  robust set of metrics (beyond citation analyses) that characterize the
                  quality, effectiveness and efficiency of both science programs and
                  service functions.” In response, NCAR developed a more
                  comprehensive set of metrics. As program officers must currently rely
                  on prior experience to learn how to strengthen future agreements,
                  program officers could be more efficient and more assured that their
                  cooperative agreements are complete if they had NSF-wide guidance
                  and resources.

                  Additionally, NSF provides little means for program officers to transfer
                  knowledge among other program officers by sharing lessons they have
                  learned in overseeing their facilities. As expressed by one program
                  officer, she would have incorporated performance measures such as
                  annual program plans and certain performance information in the


                                         17
Chapter 3
More Policy and Support Needed


                    original operation agreement if someone had shared these ideas with
                    her. Program officers stated that it would be helpful to have examples
                    of performance metrics or templates of operation agreements. Others
                    recommended that the program officers meet on a regular basis as a
                    group to discuss their facilities and what they have learned. Similarly,
                    NSF’s Facilities Subcommittee of the NSF Advisory Committee for
                    Business and Operations believed that the collective experience across
                    NSF on performance metrics may help program managers for large
                    facilities better plan for data collection in a timely and organized
                    manner. Additionally, many of NSF’s facilities are managed by a single
                    program officer. As those individuals leave NSF, through retirements or
                    otherwise, their knowledge on large facility management is lost without
                    a system for capturing and sharing it with others.

Role for Large      NSF currently has an office dedicated to the oversight of large facility
                    projects that should have the responsibility for the development of
Facilities Office   policy regarding performance evaluation and measurement for large
                    facilities. However, this office does not appear to be providing this level
                    of guidance to the program officers of facilities that are already in the
                    operations phase. By overlooking the operations phase, NSF is missing
                    a key opportunity to be involved in the total life-cycle of all facilities.

                    In 2003, NSF created the Large Facility Office within its Office of
                    Budget, Finance, and Award Administration to provide oversight for
                    NSF’s large facility projects. As noted in the Office of Inspector
                    General’s 2004 report, Survey of Large Facility Projects Management
                    and Oversight Division, it was intended that this office would have
                    sufficient institutional authority and resources to independently focus on
                    the planning, managing, and performance of NSF’s sizable investment
                    in large facility projects in all phases of their life cycle.

                    Since its creation, however, this office has concentrated most of its
                    limited resources developing policy for and monitoring facilities that are
                    anticipated or are under construction. According to many of the facility
                    program officers, the Large Facility Office is not supporting facilities
                    that are already in operation.

                    In addition, the Large Facility Office does not seem to have the
                    authority to effectuate an overarching performance measurement policy
                    currently lacking for NSF facilities. As noted in our 2004 survey, the
                    Large Facility Office faced obstacles in implementing a viable large
                    facility management and oversight program because of a lack of


                                           18
Chapter 3
More Policy and Support Needed


            institutional authority and staff resources. This problem still seems to
            exist as a 2006 report by the Business Operations Advisory Committee
            stated, xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
            xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

            By not providing the Large Facility Office the resources and authority
            necessary to fully focus on all phases of the large facility life cycle, NSF
            is unable to provide holistic and universal guidance and policy to its
            program officers with responsibility over operational facilities. As a
            result, program officers have been left to find their own way. As we
            have seen, NSF’s program officers are dedicated and have worked hard
            to try to provide robust agreements for the facilities they oversee.
            However, with the proper support, NSF could have been much more
            efficient and effective in developing cooperative agreements with robust
            performance evaluation and measure systems for its operating facilities.




                                   19
20
Chapter 4
Conclusion and Recommendations


Conclusion        With NSF investing substantial amounts of funds into the operations
                  of its 16 large facilities, it is essential that the agreements for these
                  facilities contain robust terms and conditions to ensure the facilities
                  operate efficiently and accomplish their intended award goals. As
                  such, the agreements must provide for strong performance evaluation
                  and measurement requirements. These requirements should include
                  clear and agreed-upon goals, performance measures and targets,
                  reporting requirements, and methods for evaluation and feedback.
                  While most of the agreements we reviewed require some form of
                  these performance measurement components, NSF needs to ensure
                  these components become institutional requirements of all of its large
                  facility agreements. As such, NSF should establish a cooperative
                  agreement policy that provides for these components to be
                  incorporated in every agreement. Also, NSF needs to establish
                  mechanisms to allow for knowledge transfer among program officers.
                  By sharing ideas such as annual program plans, reporting
                  requirements, trend data, other measures, and targets, NSF can help
                  ensure all large facility operation agreements contain the performance
                  information both NSF and external reviewers need to assess the
                  performance of the facility. By providing more guidance, NSF would
                  also be closer to meeting its own stewardship goal stated in the NSF
                  FY06-FY11 Strategic Plan of enhancing its processes for management
                  and oversight of large facilities.

                  NSF established its Large Facility Office to ensure effective
                  management and oversight of its large facilities. This includes
                  ensuring that cooperative agreements include strong performance
                  evaluation and measurement requirements. In its Large Facility
                  Office, NSF has some of the resources needed, such as access to other
                  NSF offices, to help ensure that cooperative agreements for operating
                  large facilities include strong performance evaluation and
                  measurement requirements. However, this office is involved
                  primarily with the planning and construction of new facilities rather
                  than the operations of existing facilities. Additionally, the Large
                  Facility Office does not appear to have the authority necessary to
                  influence the drafting and oversight of the cooperative agreements.

Recommendations   To ensure all current and future large facility operation agreements
                  include clear and agreed-upon goals, performance measures and
                  targets, reporting requirements, and methods for evaluation and
                  feedback, we recommend the NSF Deputy Director:



                                       21
 Chapter 4
 Conclusion and Recommendations


                                    1) Fully utilize the Large Facility Office by providing it with the
                                       institutional authority and resources to effectively create
                                       mandatory policies and oversee all phases of the large facility
                                       life cycle.17

                                    2) Direct the Large Facility Office to develop and incorporate into
                                       NSF's Proposal and Award Manual, an overarching policy and
                                       implementing procedures that require, either directly in the
                                       award notice or by reference through other documents, all
                                       current and future facility agreements to include, at a
                                       minimum, the four performance evaluation and measurement
                                       components: 1) clear and agreed-upon goals and objectives; 2)
                                       performance measures and, where appropriate, performance
                                       targets; 3) periodic reporting; and 4) evaluation and feedback
                                       to assess progress.

                                    3) Direct the Large Facility Office to provide training to program
                                       officers and other appropriate NSF staff on the development of
                                       cooperative agreements for large facilities in the operations
                                       phase, including the incorporation of performance evaluation
                                       and measurement components.

                                    4) Direct the Large Facility Office to develop a process for
                                       ensuring knowledge transfer and the sharing of management
                                       concepts and best practices for large facility performance
                                       management systems and periodic assessment among large
                                       facility program officers such as periodic round-table meetings
                                       and/or an electronic discussion board.

Agency Response                  NSF generally agreed with our findings and agreed to all four of our
                                 recommendations. Appendix A contains the agency’s response in
and OIG                          full.
Comments
17
  As a template to evaluate the authority and resource-level of the Large Facility Office, NSF should consider using
the newly-issued Guidelines for Assessing the Acquisition Function developed by the Office of Federal Procurement
Policy, which provides a means for assessing, among other things, organization alignment and leadership. While
this guidance was developed for an agency’s acquisition function, there are strong similarities to an office with
responsibility for the oversight of large capital projects, like NSF’s Large Facility Office. NSF can use this template
to assess various aspects of this office such as the appropriate organizational placement and whether its roles and
responsibilities are clearly defined. For example, according to the guidance, an agency should beware of a
disconnect “between where the … function is placed in the organization’s hierarchy and its actual role in achieving
the component’s mission or supporting operations.” In addition, an agency should beware of a situation where
“management does not have adequate resources and support to implement common processes and approaches.”


                                                          22
Appendix A
Agency’s Response




                    23
Appendix A
Agency’s Response




                    24
Appendix A
Agency’s Response




                    25
26
 Appendix B
 Descriptions of Sample Facilities


Gemini                       Designed to provide access to the entire sky, the Gemini Observatory,
Observatories                managed by the Association of Universities for Research in
                             Astronomy, consists of twin 8-meter optical/infrared telescopes located
                             on two of the best sites on our planet for observing the universe: Mauna
                             Kea, Hawaii and Cerro Pachon, Chile. Both of the Gemini telescopes
                             have been designed to take advantage of the latest technology and
                             thermal controls to excel in a wide variety of optical and infrared
                             capabilities. One example of this is the unique Gemini coating chamber
                             that uses "sputtering" technology to apply protected silver coatings on
                             the Gemini mirrors in order to provide unprecedented infrared
                             performance.18

                             “Gemini’s aggressive instrument program keeps the observatory at the
                             cutting edge of astronomical research. By incorporating technologies
                             such as laser guide stars, Multi-Conjugate Adaptive Optics and multi-
                             object spectroscopy, astronomers in the Gemini partnership have access
                             to the latest tools for exploring the universe.”19

                             Gemini was built and is operated by a partnership of 7 countries
                             including the United States, United Kingdom, Canada, Chile, Australia,
                             Brazil and Argentina. Any astronomer in a partner country can apply
                             for time on Gemini, which is allocated in accordance with the amount
                             of financial support provided by each partner.20

                             We chose to review Gemini because it is one of the few NSF operating
                             facilities receiving international funding. Its telescopes are also located
                             both inside and outside of United States, and NSF holds title to some of
                             the buildings for Gemini. In addition, Gemini is a fairly new facility,
                             having started operations in 2000 and 2001.


National Optical             The National Optical Astronomy Observatory (NOAO), managed by
Astronomy                    the Association of Universities for Research in Astronomy, is a
                             Federally Funded Research and Development Center the purpose of
Observatory
                             which is “to provide the best ground-based astronomical telescopes to
                             [American] astronomers, to promote public understanding and support
                             of science, and to help advance all aspects of [United States]
                             astronomy. As a national facility, NOAO telescopes are open to all

18
   See http://www.gemini.edu/about.
19
   Id.
20
   Id.


                                                    27
 Appendix B
 Descriptions of Sample Facilities


                             astronomers regardless of institutional affiliation.”21

                             We chose to review NOAO for several reasons including that it is a
                             Federally Funded Research and Development Center, NSF holds title to
                             some of NOAO’s buildings, and its numerous facilities are located
                             inside and outside the United States. In addition, other Federal
                             agencies provide funding for NOAO. Finally, NOAO conducts both
                             internal research using staff scientists, and has telescopes which are
                             also open to external users.


National Center for The National Center for Atmospheric Research (NCAR), managed by
Atmospheric         the University Corporation for Atmospheric Research, provides the
                    university science and teaching community with the tools, facilities,
Research
                             and support required to perform innovative atmospheric research.
                             Through NCAR, scientists gain access to high-performance
                             computational and observational facilities, such as supercomputers,
                             aircraft and radar - resources researchers need to improve human
                             understanding of atmospheric and Earth system processes. NCAR and
                             university scientists work together on research topics in atmospheric
                             chemistry, climate, cloud physics and storms, weather hazards to
                             aviation, and interactions between the sun and Earth. In all of these
                             areas, scientists are looking closely at the role of humans in both
                             creating climate change and responding to severe weather
                             occurrences.22

                             We chose to review NCAR not only because it is a Federally Funded
                             Research and Development Center (FFRDC),23 but also because it is
                             the only FFRDC funded through NSF’s Geosciences Directorate. In
                             addition, NCAR receives funds from other Federal agencies, and NSF
                             holds title to some of NCAR’s buildings and land. Finally, NCAR
                             conducts in-house research using salaried employees and is also open
                             to external users.




21
   http://www.noao.edu/outreach/aboutnoao.html.
22
   http://www.ncar.ucar.edu/.
23
   See Federal Acquisition Regulation Part 35 for more information on Federally Funded Research and Development
Centers.


                                                      28
 Appendix B
 Descriptions of Sample Facilities


Academic Research The Academic Research Fleet (ARF) is an “organization of 61
Fleet             academic institutions and National Laboratories involved in
                            oceanographic research.” One of its primary functions is to ensure the
                            efficient scheduling of scientific cruises aboard its 23 research vessels
                            located at different operating institutions in the ARF organization.24

                            We selected ARF for review because NSF’s oversight for ARF is
                            unlike the structure NSF uses for its other large facilities. NSF has
                            separate management agreements for each of its 23 ships and one
                            cooperative agreement for the University-National Oceanographic
                            Laboratory System office, which provides administrative services for
                            ARF ships and activities. In addition, NSF holds title to some of the
                            ships, and these research vessels travel both in U.S. and foreign waters.
                            Finally, ARF receives funding for ship operations from other Federal
                            agencies.

George E. Brown,            “The National Science Foundation created the George E. Brown, Jr.
Jr. Network for             Network for Earthquake Engineering Simulation (NEES) to improve
                            our understanding of earthquakes and their effects. NEES is a shared
Earthquake
                            national network of 15 experimental facilities, collaborative tools, a
Engineering                 centralized data repository, and earthquake simulation software, all
Simulation                  linked by the ultra-high-speed Internet2 connections of NEESgrid.
                            Together, these resources provide the means for collaboration and
                            discovery in the form of more advanced research based on
                            experimentation and computational simulations of the ways buildings,
                            bridges, utility systems, coastal regions, and geomaterials perform
                            during seismic events.”25

                            “NEES [is intended to] revolutionize earthquake engineering research
                            and education. NEES research will enable engineers to develop better
                            and more cost-effective ways of mitigating earthquake damage through
                            the innovative use of improved designs, materials, construction
                            techniques, and monitoring tools. This research can also help prevent
                            infrastructure damage from other natural disasters and from terrorism.
                            Preparing for and protecting against these threats makes American
                            communities more resilient and enhances their ability to meet the
                            challenges posed by future disasters.”26



24
   http://www.unols.org/info/unols.html.
25
   http://www.nees.org/About_NEES/ (visited 10/03/2006).
26
   Id.


                                                     29
 Appendix B
 Descriptions of Sample Facilities


                             We selected NEES for review because it is one of only two facilities in
                             NSF’s Engineering Directorate. It also is one of the newer NSF
                             facilities, with operations starting in 2004, and is one of the few NSF
                             facilities for which NSF has conducted a Total Business System
                             Review.27

Cornell Electron             The Cornell Electron Storage Ring (CESR) is a high-luminosity 6+6
Storage Ring                 GeV electron-positron collider operated by the CESR group at the
                             Wilson Synchrotron Laboratory at Cornell University. CESR has a
                             circumference of 768 meters and is located 12 meters below ground on
                             the Cornell University campus. It is capable of producing collisions
                             between electrons and their anti-particles, positrons, with center-of-
                             mass energies between 9 and 12 GeV. When an electron and positron
                             collide and annihilate, the flash of energy results in the creation of new
                             matter, sometimes exotic and unfamiliar.28 These studies shed light on
                             questions like: how did the universe evolve? What is the nature of
                             space and time? What, really, is mass?29

                             “At the end of the last decade, a new program began at CESR where
                             the physics focus shifted from the bottom quark to the lighter charm
                             quark and the energy of CESR was lowered accordingly. The CESR-
                             c/CLEO-c program is scheduled to end in 2008, but two proposals are
                             under development that will utilize CESR for work on future
                             facilities.”30

                             We chose to review CESR because of how its characteristics fit into
                             NSF’s overall large facility portfolio. CESR is an older large facility in
                             a single location within the United States; NSF does not own CESR’s
                             land or buildings; and the facility is used for both internal research and
                             external/user research.




27
   NSF’s Total Business System Reviews (TBSR) are advanced monitoring functions that NSF uses to assess the
efficiency and effectiveness of its Large Facility awardees’ business systems.
28
   See http://www.lns.cornell.edu/Research/AP/CESR/WebHome.html.
29
   See http://www.lns.cornell.edu/
30
   http://www.lns.cornell.edu/Research/AP/CESR/WebHome.html.


                                                      30
 Appendix C
 Performance Measurement Scholarship


Guide to                     The Domestic Working Group, chaired by the Comptroller General of
Opportunities for            the United States, consists of 19 Federal, State, and local audit
                             organizations. The purpose of the working group is “to identify current
Improving Grant
                             and emerging challenges of mutual interest and to explore opportunities
Accountability,              for greater collaboration within the intergovernmental audit
2005                         community.” The working group identified grant accountability as a
                             concern, and requested the Inspector General of the U.S. Environmental
                             Protection Agency to lead a project to address this concern. As a result,
                             in October 2005, the working group issued the Guide to Opportunities
                             for Improving Grant Accountability. The stated purpose of this guide is
                             to “provide government executives at the Federal, State and local levels
                             with ideas for better managing grants.” The Guide identifies
                             opportunities for improvement in five key areas: internal controls,
                             performance measures, the pre-award process, managing performance,
                             and assessing and using results.

Committee of                 The Committee of Sponsoring Organizations of the Treadway
Sponsoring                   Commission (COSO) is a voluntary private sector organization
                             dedicated to improving the quality of financial reporting through
Organizations:
                             business ethics, effective internal controls, and corporate governance.
Internal Control –           COSO was originally formed in 1985 to sponsor the National
Integrated                   Commission on Fraudulent Financial Reporting, an independent private
Framework, 1992              sector initiative that studied the causal factors that can lead to fraudulent
                             financial reporting and developed recommendations for public
                             companies and their independent auditors, for the SEC and other
                             regulators, and for educational institutions. COSO has established a
                             common definition of internal controls, standards, and criteria against
                             which companies and organizations can assess their control systems.

Key Performance              In September 2002, the Federal Facilities Council of the National
Indicators for               Research Council31 authorized a study to “identify key performance
                             indicators that could be used by senior-level Federal managers to
Federal Facilities
                             determine a full range of outcomes of investments in portfolios of
Portfolios, 2005             research facilities and to improve facilities asset management.” “This
                             study lays out a framework for developing and evaluating trends in
                             facilities portfolio conditions, investments, and costs and identifies a set
                             of key indicators that can be used to track performance over time.”

31
  The National Research Council is part of the National Academies, which also comprise the National Academy of
Sciences, National Academy of Engineering and Institute of Medicine. They are private, nonprofit institutions that
provide science, technology and health policy advice under a congressional charter. The Research Council was
organized by the National Academy of Sciences in 1916 to associate the broad community of science and
technology with the Academy's purposes of further knowledge and advising the Federal government.


                                                        31
Appendix C
Performance Measurement Scholarship


Performance          In 2003, the Office of Management and Budget (OMB), along with the
Measurement          Council for Excellence in Government (a nonprofit organization), held a
                     workshop on performance management. As a result, the OMB
Challenges and
                     published a document entitled Performance Measurement Challenges
Strategies, 2003     and Strategies to complement its already existing guidance for the
                     Performance Assessment Rating Tool, which is tool used to assess
                     government-program performance. Many of the challenges identified in
                     this document relate to assistance awards. The challenges and suggested
                     strategies address programs that: 1) have outcomes that are extremely
                     difficult to measure (such as research and development programs); 2)
                     are among many contributors to a desired outcome (such as many grant
                     programs); 3) have results that will not be achieved for many years
                     (such as research and development programs); 4) relate to deterrence or
                     prevention of specific behaviors; 5) have multiple purposes and funding
                     that can be used for a range of activities; and 6) are administrative or
                     process oriented.

Results-Oriented     This sourcebook, most recently updated in 2002, is available to assist in
Assistance: A        the design, award, and administration of results-oriented grants and
                     cooperative agreements to implement foreign assistance activities.
USAID
                     Results-oriented awards are those that seek to measure performance in
Sourcebook, 2002     terms of the desired outcomes of the programs. The sourcebook is
                     intended to help USAID staff and Development Partners improve their
                     ability to manage for results through partnership relationships.

Department of        The United States Department of Energy (DOE) funds several
Energy               laboratories, which like some of NSF’s large facilities are considered
                     Federally Funded Research and Development Centers and are managed
Performance
                     by outside entities such as research universities under contract with
Appraisal Process,   DOE. To provide an overall methodology and framework for laboratory
2006                 performance evaluation and incentives, DOE has instituted policies for
                     laboratory contractor performance and evaluation. The performance
                     evaluation and measurement process is incorporated into the
                     laboratories’ contracts with DOE. This measurement process includes
                     performance measures and targets for both management and operation
                     goals and objectives and science and technology goals and objectives.
                     Management and operation evaluation include measures such as the
                     percent of external audits findings that were not previously identified
                     through self assessment or the number of safety incidents, while science
                     and technology measures include number of publication in journals,
                     significant awards, and invited talks.



                                            32
 Appendix C
 Performance Measurement Scholarship


Report by the               NSF’s Advisory Committee32 for Business and Operations provides
Facilities                  advice to the Director of the Office of Budget, Finance and Award
                            Management concerning issues related to the oversight, integrity,
Subcommittee of
                            development, and enhancement for improved performance of NSF's
the NSF Advisory            business operations. This advisory committee also provides specialized
Committee for               guidance through its Facilities subcommittee. This subcommittee
Business and                examines the business practices NSF applies to planning and executing
Operations, 2006            major research facility projects. In 2006, in response to a charge given
                            by NSF’s Chief Financial Officer, the Facilities subcommittee examined
                            the steps NSF could take to improve its assessment processes that
                            ascertain the state of facility performance. Joined by a group of NSF-
                            selected facilities operations participants with experience in the
                            operations issues of large scientific facilities, this subcommittee
                            conducted the study and presented its report to the full Advisory
                            Committee for Business and Operations.




32
  This committee is established under the Federal Advisory Committee Act (5 USC App.) and is comprised of
professionals from the scientific research administration, education management, and business communities.


                                                      33
34
Appendix D
Detailed Information on Each Cooperative Agreement


Gemini          Clear and Agreed-Upon Goals: The award notice for Gemini clearly
                states the goals to be achieved in the operations phase of the facility. For
Observatories   example, two of the goals stated in the award notice are “providing
                facilities, services and support to individual scientific investigators and
                research institutions, both foreign and domestic” and “engaging in
                educational and training programs as may be appropriate to assist Gemini
                users and further education in these and closely related fields.” In
                addition, the award notice requires long-term as well as annual program
                plans, approved by the NSF program officer, that define and give
                substance to these facility goals.

                Performance Measures and Targets: Gemini’s proposal lists a wealth of
                performance measures and targets the awardee will collect such as
                statistics by country, demand for each Gemini instrument and observing
                mode, oversubscription rates and histories, and the time required to slew
                a telescope, reconfigure it, acquire the target, carry out the observing
                sequence, perform calibrations, and assess data quality. Gemini’s
                proposal also identifies a target of cost per paper or citation and requires
                the comparison of this cost to other ground-based or space observatories.
                It also requires the facility to send questionnaires to users. The award
                notice also requires Gemini to collect Government Performance and
                Results Act (GPRA) measures and targets, annual program plans, and
                quantitative performance measures. These measures include a list of
                observing programs, with their investigators, site visitors, observers, and
                hours devoted to each and non-scientific visitor statistics.

                Reporting to NSF: Gemini’s award notice requires the awardee to report
                to NSF on tasks completed under its annual program plan, GPRA
                measures and targets, and specific quantitative and qualitative
                performance information. However, while the Gemini agreement does
                meet all of our basic performance evaluation components, it could still be
                improved by requiring the awardee to report on all of the performance
                measures and targets for which NSF requires the awardee to collect
                performance data.

                Evaluation and Feedback: The award notice addresses NSF’s
                responsibilities for evaluation and feedback. It explains that NSF will,
                “in cooperation with the Gemini partners, conduct an in-depth review of
                the management of the Observatory by [Association of Universities for
                Research in Astronomy] midway through the duration of this
                Cooperative Agreement.” In addition, the award notice references OMB
                Circular A-110 which provides a process through which NSF can impose


                                        35
Appendix D
Detailed Information on Each Cooperative Agreement


              additional requirements on awardees with a history of poor performance.
              The Gemini proposal also requires the awardee to maintain several
              committees which provide input on the operations of the facility. The
              agreement also includes a termination clause that allows NSF to
              terminate the award in whole or in part in certain situations, including if
              the awardee has failed to comply with terms and conditions of the award.
              The award notice further explains that NSF will “require updates to the
              Management Plan in response to management issues that may arise.
              These updates should reflect remedies or remedial action necessary to
              address these concerns. The Awardee shall submit such revisions to the
              NSF Program Officer for review.” However, nowhere does the
              agreement clearly specify what constitutes poor performance that would
              necessitate corrective action on the part of the awardee.

National      Clear and Agreed-Upon Goals: The award notice for the National
              Optical Astronomy Observatory (NOAO) states the goals to be achieved
Optical       in the operations phase of the facility. For example, two of the goals
Astronomy     stated in the award notice are to “provide forefront observing capabilities
Observatory   and observing support to individual scientific investigators and research
              institutions on the basis of merit” and “provide education and training
              programs which strengthen astronomy education at all levels.” In
              addition, the award notice requires long-term as well as annual program
              plans, approved by the NSF program officer, that define and give
              substance to these facility goals.

              Performance Measures and Targets: NOAO’s proposal, which is
              incorporated into the award notice by reference, lists a wealth of
              performance measures and targets NOAO will collect. These include
              such quantitative performance measures as the number of teachers and
              students reached during the year, annual visitor totals, actual vs. budgeted
              costs, workshop participation rates, and delivery of major system
              instrumentation on time and budget. It also includes such targets as the
              number of scientific citations per $100 million invested as compared to
              an equivalent observatory. The proposal also explains NOAO will
              require every user to complete a satisfaction survey. In addition to the
              proposal, the award notice requires performance measures such as a
              summary of visitor use of facilities including demographic information
              about visitors, numbers of students, and a summary of telescope
              subscription statistics. The award notice further requires NOAO to
              collect Government Performance and Results Act (GPRA) performance
              measures and targets and Annual Program Plans, which help measure the
              success of the facility by comparing actual accomplishments during the


                                      36
Appendix D
Detailed Information on Each Cooperative Agreement


                  year to the awardee-created goals or milestones in the previous year's
                  plan.

                  Reporting to NSF: NOAO’s award notice further requires the awardee to
                  report to NSF on tasks completed under its annual program plan, GPRA
                  measures and targets, and specific quantitative and qualitative
                  performance information. However, while the NOAO agreement does
                  meet all of our basic performance evaluation components, it could still be
                  improved by requiring the awardee to report on all of the performance
                  measures and targets for which NSF requires the awardee to collect
                  performance data.

                  Evaluation and Feedback: The award notice also addresses evaluation
                  and feedback. It explains the facility will, “[c]onduct an in-depth review
                  of the management of NOAO and [National Solar Observatory] by
                  [Association of Universities for Research in Astronomy] within
                  approximately three (3) years from the effective date of this award.” It
                  also sets up “an external oversight committee which will regularly report
                  to NSF their evaluation and recommendations regarding the overall
                  effectiveness of NOAO...” In addition, the award notice references
                  OMB Circular A-110 which provides a process through which NSF can
                  impose additional requirements on awardees with a history of poor
                  performance. The award notice also references NSF’s Grant General
                  Conditions, which includes a termination clause that allows NSF to
                  terminate an award in whole or in part in certain situations, including if
                  the awardee has failed to comply with terms and conditions of the award.
                  However, nowhere does the agreement clearly specify what constitutes
                  poor performance that would necessitate corrective action on the part of
                  the awardee, nor does it explain what types of intermediate levels of
                  corrective action NSF can require of the awardee short of suspension or
                  termination of award funds and operations. Finally, NOAO’s proposal
                  also creates user committees that provide useful feedback to the facility
                  on its performance.

National Center   Clear and Agreed-Upon Goals: The proposal for the National Center for
                  Atmospheric Research (NCAR) lists six overarching priorities of the
for               facility. In addition, the cooperative support agreement requires long-
Atmospheric       term as well as annual program plans, approved by the NSF program
Research          officer, that define and give substance to these facility goals. NCAR’s
                  strategic plan includes several more goals for both NCAR’s scientific
                  and education programs. For example, two of the goals stated in the
                  strategic plan are to “provide robust, accessible, and innovative


                                          37
Appendix D
Detailed Information on Each Cooperative Agreement


             information services and tools” and “provide world-class ground,
             airborne, and space-borne observational facilities and services.” Finally,
             NCAR’s primary cooperative support agreement, issued pursuant to the
             award notice, contains additional goals provided as “awardee
             responsibilities.”

             Performance Measures and Targets: NCAR’s strategic plan,
             incorporated as part of its proposal, lists a wealth of performance
             measures and targets NCAR will collect. These include primarily
             qualitative performance measures such as: providing access to tools and
             services that will enhance the scientific community’s ability to perform
             cutting-edge, innovative research; producing more sophisticated analyses
             and predictions of Earth system variability and change, and of the
             impacts of change on ecosystems and human society; and providing
             students and teachers new opportunities to benefit from and participate in
             the science and engineering taking place at a major national research
             center. These measures also include sub-measures or activities that
             effectuate these more broad qualitative measures. However, there are
             very few quantitative or output-oriented measures and targets. One such
             measure is related to the HIAPER aircraft and states the aircraft will be
             available for at least 400 hours of research operations per year through a
             community-based allocation process. Several of the measures, though,
             could easily become quantitative or output in nature. For example, many
             of the education and outreach related measures could be re-cast as
             quantitative measures. One such measure is that “the broader
             geosciences community and university atmospheric sciences community
             will enjoy more opportunities to visit and work with NCAR.” This
             measure could have been defined in terms of the number of visiting
             scientists and collaborators and then NCAR could have calculated the
             increase. By recasting these types of measures in quantitative terms,
             NCAR and NSF can use the data to provide a much more effective
             picture of NCAR’s success in this area.

             Reporting to NSF: In addition to the basic reporting requirements
             contained in NCAR’s award notice, the primary cooperative support
             agreement, issued pursuant to the award notice, requires a detailed
             Annual Scientific Report that describes the scientific and facilities
             programs conducted by NCAR staff, NCAR visitors and community
             participants in the preceding fiscal year. This report is also to “promote
             understanding of the nature and scope of the programs, significance of
             accomplishments, participation in NCAR programs by scientists from
             other institutions, participation of NCAR staff in community projects,


                                     38
Appendix D
Detailed Information on Each Cooperative Agreement


                 and a listing of the scientific output and capacity of the Center.”

                 Evaluation and Feedback: The award notice also addresses evaluation
                 and feedback. It explains NSF will “conduct a review of the science and
                 facility programs of NCAR, and the management of NCAR at a mutually
                 agreed time. Specific guidelines for the review will be agreed upon by
                 NSF, NCAR and [the managing organization].” In addition, the award
                 notice references the Cooperative Agreement Financial and
                 Administrative Terms and Conditions which reference OMB Circular A-
                 110. A-110 provides a process through which NSF can impose
                 additional requirements on awardees with a history of poor performance.
                 The Cooperative Agreement Financial and Administrative Terms and
                 Conditions also includes a termination clause that allows NSF to
                 terminate an award in whole or in part in certain situations, including if
                 the awardee has failed to comply with terms and conditions of the award.
                 However, nowhere does the agreement clearly specify what constitutes
                 poor performance that would necessitate corrective action on the part of
                 the awardee, nor does it explain what types of intermediate level of
                 corrective actions NSF can require of the awardee short of suspension or
                 termination of award funds and operations.

Academic         Clear and Agreed-Upon Goals: Each of the Academic Research Fleet
                 (ARF) award notices clearly list some, but not all of its goals to be
Research Fleet   achieved in the operations phase of the facility. For example, one of its
                 goals is “maintaining the Vessel and all of its equipment in accordance
                 with good marine practice.” However, the ARF program officer
                 provided a list of clear goals, which were not explicitly included in the
                 cooperative agreements. Rather, these goals were part of a context
                 statement, which are not incorporated into the agreements. For example,
                 one of these critical goals was “[f]iscal responsibility to achieve
                 budgetary goals without impacting science goals and safety.” The NSF
                 Grants Officer in charge of ARF stated NSF’s Division of Grants and
                 Agreements was open in the future to incorporating these goals into the
                 cooperative agreement.

                 Performance Measures and Targets: The ARF award notice, through
                 incorporation of NSF Guidelines 04-52, requires the awardee to collect
                 many performance measures and provide annual estimates for these
                 measures, which they use as targets. These include information on the
                 scientific utilization of the ships for the past two years, estimated current
                 year, and proposed next year. This includes information on the number
                 of cruises, operating days, days at sea, maintenance days, and days out of


                                          39
Appendix D
Detailed Information on Each Cooperative Agreement


              service. In addition, the agreements require detailed cost information
              broken out by categories such as salary, food, fuel, and insurance for the
              past two years, current year, and estimates for the next year. The award
              notice also requires scientists and ship captains to fill out post-cruise
              assessments. These surveys ask questions such as to what extent science
              objectives of the cruise were met and how well the research vessel and its
              installed equipment contributed to achieving the scientific objectives.

              Reporting to NSF: ARF ship agreements require the awardees to report
              the annual quantitative and qualitative performance information
              described in the above paragraph to NSF, and the University-National
              Oceanographic Laboratory System support office agreement requires the
              awardee to send the results of user surveys to NSF.

              Evaluation and Feedback: The award notice, through incorporation of
              NSF Guidelines 04-52, addresses NSF’s responsibilities for evaluation
              and feedback. It explains “agreements are evaluated annually by the
              cognizant Program Director and every five years through an external
              merit review process.” In addition, the award notice references the NSF
              Cooperative Agreement Financial and Administrative Terms and
              Conditions, which references OMB Circular A-110. A-110 provides a
              process through which NSF can impose additional requirements on
              awardees with a history of poor performance. The NSF Cooperative
              Agreement Financial and Administrative Terms and Conditions also
              include a termination clause that allows NSF to terminate an award in
              whole or in part in certain situations, including if the awardee has failed
              to comply with terms and conditions of the award. However, the ARF
              agreements do not clearly specify what constitutes poor performance that
              would necessitate corrective action on the part of the awardee and does
              not explain what types of intermediate level of corrective actions NSF
              can require of the awardee short of suspension or termination of award
              funds and operations.

George E.     Clear and Agreed-Upon Goals: The Network for Earthquake
              Engineering Simulation (NEES) award notice lists some of the goals to
Brown, Jr.    be achieved in the operations phase of the facility. For example, one goal
Network for   is for the awardee to “[p]rovide leadership and planning to ensure that
Earthquake    NEES remains a state-of-the-art distributed research facility accessible to
              the earthquake engineering community.” However, the facility’s
Engineering   management is still trying to improve the clarity of some of its goals. A
Simulation    2005 NSF review team noted that NEES “did not have clear, consistent,
              and focused goals.” As a result, the awardee created a “task group on


                                      40
Appendix D
Detailed Information on Each Cooperative Agreement


             success” and issued revised long-term strategic goals. Most recently, a
             July 2007 review team stated that NEES still needed to better convey
             what the facility wants to achieve. In particular, the site visit report
             stated that NEES lacked “corresponding objectives to demonstrate the
             relevancy, measurability, or successful achievement of each of [its]
             goals.” NSF now intends to phase out the NEESinc cooperative
             agreement over a two-year period.

             Performance Measures and Targets: The NEES award notice requires
             the awardee to develop performance measures and targets. However, the
             cooperative agreement does not specify by when the awardee should
             complete and submit its metrics to NSF. As of June 2007, the awardee
             was still in the process of creating some of its performance measures and
             targets. The award notice also requires user surveys, qualitative and
             quantitative performance information, and NSF GPRA measures. In
             addition, NEES and NSF have also started to use annual work plans to
             assess facility activities but NSF has not explicitly included annual work
             plans in NEES’ cooperative agreement.

             Reporting to NSF: NSF has strengthened the NEES reporting
             requirements through an amendment to its cooperative agreement that
             requires the awardee to report to NSF on its self-determined performance
             metrics. It also requires the awardee to submit additional performance
             information, including equipment site usage data, maintenance outages,
             downtime, and purchases.

             Evaluation and Feedback: Finally, the award notice addresses NSF’s
             responsibilities for evaluation and feedback. It explains that a
             comprehensive program evaluation review will be conducted in year four
             of the award. In addition, the award notice references Cooperative
             Agreement Financial and Administrative Terms and Conditions
             (CAFATC) which references OMB Circular A-110. A-110 provides a
             process through which NSF can impose additional requirements on
             awardees with a history of poor performance. The CAFATC also
             includes a termination clause that allows NSF to terminate an award in
             whole or in part in certain situations, including if the awardee has failed
             to comply with terms and conditions of the award. However, the
             agreement does not clearly specify what constitutes poor performance
             that would necessitate corrective action on the part of the awardee and
             does not explain what types of intermediate level of corrective actions
             NSF can require of the awardee short of suspension or termination of
             award funds and operations.


                                     41
Appendix D
Detailed Information on Each Cooperative Agreement


Cornell        Clear and Agreed-Upon Goals: The Cornell Electron Storage Ring
               (CESR) award notice lists some of the goals the CESR awardee is to
Electron       achieve in the operations phase of the facility. For example, two goals
Storage Ring   are “[t]o operate the CESR accelerator with the highest efficiency
               consistent with available technology” and to “[p]rovide support for
               external users of the CESR facility and collaborators.” However,
               CESR’s goals have changed over time as the facility has matured but the
               cooperative agreement has not kept pace and been updated with these
               new goals. In addition, CESR’s agreement does not require annual or
               long term program plans, which can be useful in defining goals and
               providing a mechanism for updating them.

               Performance Measures and Targets: CESR’s agreement is mostly silent
               on the creation of performance measures and targets. This agreement
               does not incorporate the NSF GPRA measures, nor does it require user
               surveys, annual program plans, or in-depth quantitative or qualitative
               information.

               Reporting to NSF: The CESR agreement only requires the awardee to
               report basic project reporting information such as NSF requires for
               majority of its awardees. Because the CESR agreement does not include
               performance measures and targets, the awardee may not collect
               meaningful information or report this to NSF.

               Evaluation and Feedback: The award notice does address NSF’s
               responsibilities for evaluation and feedback. It explains “a
               comprehensive review will be held midway through the third year by
               NSF staff, with possible assistance from an external panel of experts.” In
               addition, the award notice references the Grant General Conditions
               which reference OMB Circular A-110. A-110 provides a process
               through which NSF can impose additional requirements on awardees
               with a history of poor performance. The Grant General Conditions also
               include a termination clause that allows NSF to terminate an award in
               whole or in part in certain situations, including if the awardee has failed
               to comply with terms and conditions of the award. However, the
               agreement does not clearly specify what constitutes poor performance
               that would necessitate corrective action on the part of the awardee and
               does not explain what types of intermediate level of corrective actions
               NSF can require of the awardee short of suspension or termination of
               award funds and operations.




                                       42
